                     U.S. Department of the Interior
                         Office of Inspector General




                    Semiannual Report
                       to the Congress

Message From the
Inspector General

O I G Initiatives

S i gnif icant
N arrative
S ummaries




October 2009
Approximately 70 percent of the planet is covered
by water—the same percentage, give or take, in the
human body when it is at its most healthy. As the
conservation of water becomes a primary global issue
of the 21st century, we are reminded that caring for
our water resources is caring for ourselves.
                 	   Contents				                      October 2009

Staff            	   About DOI and OIG				                   ii

Editorial        	   Message From the
Donald Cairns
                 	   Inspector General	 			                 iii
Scott Culver
Joann Gauzza
Mary Maruca      	   OIG Operating Principles		             iv
                 	

Photography      	   OIG Initiatives					                    1
Bryan Brazil     	
Stock Photos
                 	   Significant Narrative Summaries	    4
Production
                 	   Department-wide Issues	       	 	 	     4
Mary Maruca      	   Bureau of Indian Affairs				          18
                 	   Bureau of Indian Education	 	   	 	   24
                 	   Bureau of Land Management			          28
Visit us at:     	   National Park Service	        	 	 	   32
www.doioig.gov   	   Office of Insular Affairs	    	 	 	   36
                 	   U.S. Fish and Wildlife Service	 	 	   38
                 	
                 	   Appendices	 	          	    	     	   40




                                                                      i
     About DOI and OIG	

         The U.S. Department of the Interior (DOI) is a large, decentralized agency with more than
     67,000 employees and 236,000 volunteers located at approximately 2,400 operating locations across the
     United States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500 million
     acres of America’s public land, or about one-fifth of the land in the United States, and 56 million acres of
     Indian Trust lands. DOI also has responsibility for a variety of water and underwater resources, including
     479 dams and 348 reservoirs and approximately 8,526 active oil and gas leases on 44 million acres of the
     Outer Continental Shelf. Approximately 30 percent of the nation’s energy production comes from projects on
     DOI-managed lands and offshore areas. DOI scientists conduct a wide range of research on biology, geology,
     and water to provide land and resource managers with critical information for sound decisionmaking. DOI
     lands also provide outstanding recreational and cultural opportunities to numerous visitors worldwide.

         The Office of Inspector General (OIG) promotes excellence, integrity, and accountability in
     these DOI programs. With fewer than 300 employees, the organization is driven by a keen sense of mission
     and dedicated to providing products and services that impact DOI mission results.

         Images on the following pages remind readers of the Department’s stewardship responsibilities for the
     nation’s water resources, as well as the critical role that water plays for each of us. By its presence or its
     absence, water shapes landscapes and those who live on them. The OIG is responsible for ensuring that those
     who safeguard these resources practice the highest ethical standards when conducting the business of
     government in the best interest of the American public.




ii
                                                                                                 Back to Toc
                                                                                                                 NT OF TH
                                                                                                      ME                 E
                                                                                                    RT                       I




                                                                                                A




                                                                                                                             N
                                                                                              EP




                                                                                                                                 TE
                                                                                        U.S. D




                                                                                                                                   RIO
                                                                                                                                    R
Message From the Inspector General




                                                                                                                                   AL
                                                                                        OF
                                                                                              Ag
                                                                                                en




                                                                                                                                 ER
                                                                                          FI
                                                                                                    of




                                                                                                  ts
                                                                                               E       P   osi




                                                                                             C
                                                                                                              tive




                                                                                                                             N
                                                                                                    OF             Ch
                                                                                                                      GE
                                                                                                               ange
                                                                                                            INSP
                                                                                                                ECTOR




        Eight months ago, the American Recovery and Reinvestment Act initiated a series of events
   that continue to influence the focus, direction, and accomplishments of the Office of Inspector
   General. With the departure of Inspector General Earl Devaney to chair the Recovery,
   Accountability and Transparency Board (RATB), we also lost a considerable number of key
   staff as detailees to the RATB. While we quickly reassembled to cover the responsibilities of
   departing staff, we also had to stand up an entirely new unit to provide specialized oversight
   for the $3 billion of Recovery funds that the Department was to receive.

       In the 8 months since its inception, the Recovery Oversight Office (ROO) has grown from a
   small unit scrambling to identify its oversight strategy to an efficient and effective organization
   creating products that dramatically improve the ability of DOI to prevent and detect ineffective
   and inappropriate use of Recovery monies.

       ROO’s structure and accomplishments have created a new model of oversight. Increasingly,
   we are drawing on the expertise of all our talented employees—investigators, auditors, evaluators,
   analysts, administrative staff, IT and other technical personnel—to work across boundaries and in
   teams to bring their abilities to bear on the way we execute OIG oversight responsibilities.
   Following ROO’s example, the OIG is also extending itself in other arenas to work with other
   agencies to leverage resources and expand oversight coverage.

        Overall, the accomplishments summarized in this Semiannual Report demonstrate our
   continued commitment to ensuring that the Department carries out its mission in the most
   efficient and effective way, protecting and preserving the natural resources and cultural legacy
   placed in its care.




                                                         Mary L. Kendall
                                                         Acting Inspector General




                                                                                        Back to Toc                                      iii
     OIG Operating Principles

     Mission
         The mission of the OIG is to promote excellence, integrity, and
     accountability in the programs, operations, and management of DOI.

     Values
         The OIG operates as an independent oversight organization respon-
     sible to the American people, the Secretary, and the Congress to
     independently evaluate the operations of DOI. Our core values are:
     Honesty and Integrity, Independence and Relevance, Fairness and
     Objectivity, and Professionalism and Competence.

     Goals
         The goals of the OIG establish the framework to position the agency
     in such a way as to be relevant and respected for its expertise and prod-
     ucts in the rapidly changing world of 21st century America. We continu-
     ously strive to evaluate our efforts to ensure DOI’s accountability and our
     responsiveness to the needs of Congress and the American people. We
     seek to develop and maintain an organization whose ideas and
     performance results make us a leader in the federal government.

     Responsibilities
         The OIG is responsible for independently and objectively identifying
     risks and vulnerabilities that directly impact, or could impact, DOI’s
     ability to accomplish its mission. We are required to keep the Secretary
     and the Congress fully and currently informed about problems and defi-
     ciencies relating to the administration of DOI programs and operations.
     Effective implementation of this mandate addresses the public’s demand
     for greater accountability and integrity in the administration of govern-
     ment programs and operations and addresses the demand for programs
     that work better, cost less, and get the results Americans care about most.




iv
Activities
     The OIG accomplishes its mission by conducting audits, inspections,
evaluations, assessments, and investigations relating to DOI programs
and operations. Our activities are tied directly to DOI major responsibili-
ties and are designed to assist DOI in developing solutions for its most
serious management and program challenges, most notably cross-cutting
or DOI-wide issues. These activities are also designed to ensure that we
keep critical issues prominent, thus providing opportunities to influence
key decisionmakers and increase the likelihood that we will achieve
desired outcomes and results that benefit the public.

DOI Management Challenges
     OIG programs help to meet DOI’s Management Challenges:
Financial Management; Information Technology; Health, Safety, and
Emergency Management; Maintenance of Facilities; Responsibility
to Indians and Insular Areas; Resource Protection and Restoration;
Revenue Collections; and Procurement, Contracts, and Grants.




                                                 Wind and water are in motion across the wild lands
                                                 of the Western Hemisphere as planetary rotation
                                                 brings us toward winter. Here, sunlight on a moun-
                                                 tain reminds us of the value of the resources we
                                                 safeguard for future seasons and generations.




                                                                                                      v
                                                                                Back to Toc
Office of Inspector General




          The work of sculpture James Earle Fraser,
          the Guardian of the Law is positioned on
          the right side of the main entrance to the
          Supreme Court, gazing toward the Capitol.
OIG Trends, Themes, and Initiatives
     In our April 2009 Semiannual Report to the Congress, we discussed
the period of enormous change for the nation as a whole and all levels
of government that resulted from enactment of the American Recovery
and Reinvestment Act of 2009. The Recovery Act, commonly referred
to as the stimulus program, not only generated huge public interest and
media attention, but also led to structural changes for the OIG that saw
Inspector General Earl Devaney assume the chairmanship of the Recov-
ery, Accountability, and Transparency Board (RATB) that oversees the
$787 billion stimulus program. That, in turn, led to the creation of new
programs and approaches at OIG that carry on Devaney’s legacy while
also moving us in new directions in the way we achieve our mission.

    The past 6 months have been a period of rapid transformation,
reevaluation, and accomplishment throughout the OIG in response to the
requirements of the Recovery Act. Among the first and most significant
changes was the creation of the Recovery Oversight Office (ROO). This
innovative office provides a single point of focus for our work in pre-
venting and detecting waste, fraud, and mismanagement of the $3 billion
in Recovery Act funds designated for DOI programs.

     ROO has performed with vigorous enthusiasm, implementing a new
and expanded collaborative model to help us more effectively conduct
our oversight responsibilities for bureaus and agencies operating in an
increasingly technological and fast-paced environment. The ROO pro-
gram stresses early detection and notification of problems to DOI and its
bureaus, and the enumeration of pinpoint solutions to ensure the best use
of taxpayer dollars.

    Working on many fronts simultaneously, ROO also has provided
technical assistance and educational programs to DOI employees as
well as to recipients of Recovery Act funds so that all involved groups
are well informed of the responsibilities associated with tracking and
using the public’s money. Such end-user training has been coupled with
a specific focus on the responsibilities of contracting officer’s technical
representatives. As a result, a course has been delivered through DOI
University and other venues to disseminate this information. Specific
audiences have received presentations on best practices and other strate-
gies. Also, fraud awareness training has been delivered to components
of each of the bureaus that received Recovery funds.

    If education is one element of the ROO approach, a second is sharply
focused reviews called critical point evaluations for major projects and




                                                                              1
    initiatives. ROO has found that these short duration evaluations, along
    with management advisories on key issues, help bureaus both acquire
    information quickly and remain alert to potential vulnerabilities. This
    facilitates the ability to take rapid action before trends manifest as
    serious problems.

        While prevention is a significant part of the larger oversight
    mission, we will, undoubtedly, detect problems, including fraud, which
    will require audit and investigative responses. ROO coordinates
    closely with our Office of Audit, Inspection and Evaluation and Office
    of Investigations to refer matters that require a specifically focused,
    more detailed review of Recovery Act funds.

         This three-pronged approach incorporates prevention, detection,
    and transparency through the mediums of education, rapid response
    reporting, and focused review, as required. ROO calls on a broad array
    of disciplines, using the skills of auditors, investigators, evaluators, in-
    formation technology (IT) specialists and others, in a team environment
    to identify problems early and to alert DOI quickly about targeted solu-
    tions identified by these cross-cutting teams. Through collaboration,
    ROO, and in a larger sense the OIG itself, is demonstrating the value of
    reaching across boundaries and disciplines — whether administratively
    or programmatically — to help DOI more effectively and equitably
    conduct business and safeguard public resources.

        Even as it is evolving new models for detection and prevention,
    OIG also continues to play an important role within the high-stakes
    environment of IT security preparedness. Accountability is a critical
    component of the OIG’s interface with DOI. Annual evaluations help
    DOI determine its compliance with critical legislation such as the
    Federal Information Security Management Act (FISMA).

        The OIG also evaluates the success of DOI’s implementation of
    guidance that helps the Department maintain data security. As informa-
    tion security continues to grow in importance, the OIG is committed
    to helping DOI refine the effectiveness and efficiency of its overall
    information systems security program.




2
     Finally, the responsiveness of DOI to the daily administrative
responsibilities associated with the smooth functioning of government
reinforces its overall commitment to conducting its mission effectively
for the benefit of the American people. The OIG, through its analy-
sis of the services provided by the National Business Center (NBC),
including review of DOI’s passport offices, helps ensure that protocols
are followed for a secure workplace for all employees. Although this
and similar responsibilities may be viewed as the traditional aspects of
working for OIG, they underscore the very foundation of our commit-
ment to the daily ethical, efficient, and transparent conduct of the
business of government at DOI.




                                                     The winged figure of Democracy is part of
                                                     the 15-foot marble monument to Christopher
                                                     Columbus in front of Union Station in Washington,
                                                     D.C. The monument faces the U.S. Capitol.




                                                                                                         3
                                                                                  Back to Toc
Department-wide Issues




       Water is life, and its abundance or
       limitation defines the life forms
       found on the land. Here Ribbon Falls,
       Grand Canyon.
DOI Firearms Management
Assessed for Accountability
    Does DOI law enforcement have adequate measures in place to
ensure accountability for the firearms its bureaus manage? To find out,
we conducted an assessment, part of the OIG’s ongoing efforts to exam-
ine DOI law enforcement programs and homeland security issues. DOI
has eight law enforcement programs with more than 4,000 personnel
commissioned to protect natural resources, national icons and monu-
ments, millions of visitors, and more than 67,000 employees. Law en-
forcement firearms are expected to be properly inventoried and securely
guarded by these commissioned employees.

    All DOI bureaus have policies and procedures in place to control
and safeguard property. Generally, these are consistent with DOI stan-
dards and other federal regulations. However, despite these policies and
procedures, we found that most DOI law enforcement programs could
not accurately account for their cached firearms. We found inventories
to be inaccurate. We also found that those responsible for firearms ac-
countability did not always follow established procedures for conducting
periodic inventories or for reporting and investigating missing firearms.

     Overall, we identified 373 inventory discrepancies out of a total
1,334 firearms that we physically handled. These discrepancies include
firearms listed on inventories but not present, firearms present but not
listed on inventories, and administrative errors such as lost and unpro-
cessed paperwork or transposition errors. These results demonstrate
that DOI cannot accurately account for the number of law enforcement
firearms it has or for where those firearms are located.

    In addition, 50 percent of the law enforcement personnel entrusted
with maintaining firearms caches lacked property management and/or
inventory training. DOI does not require that firearms property
custodians receive such training. So most individuals either familiarize
themselves with this information or have it passed down to them from
their predecessors.

    Firearms acquisition and disposal also vary depending on a bureau’s
operations and structure. Some bureaus manage the acquisition and dis-
posal process nationally from a central location, while others leave these
activities to regional or local offices.

    Finally, DOI has no standards for the physical security of firearms
caches. Although all firearms caches that we observed had been secured
under some type of access control, the degree of physical security varied
greatly among bureaus and intra-bureau locations. Some bureaus have
installed multi-layered security systems as control measures. Others
have minimal controls, thus leaving themselves vulnerable to theft.
                                                                             5
    Recovery Oversight

    ░Overview
         In February 2009, the OIG established a Recovery Oversight Office (ROO)
    to take primary responsibility for the OIG’s oversight of the approximately $3
    billion appropriated under the American Recovery and Reinvestment Act (Re-
    covery Act). ROO combats the increased risk for fraud, waste, and misman-
    agement under the Act with its “three-pronged approach” focused on prevent-
    ing fraud, waste, and mismanagement; detecting instances of fraud, waste, and
    mismanagement when they occur; and ensuring transparency in all oversight
    efforts. A key aspect of ROO oversight is the integration and deployment of
    combined audit and investigative teams to improve opportunities to prevent
    and detect fraud.

         ROO identified six areas of high risk for Fiscal Year (FY) 2009:
    (1) financial assistance oversight and monitoring; (2) awards to high-risk tribes,
    particularly through Public Law 93-638 awards; (3) design-build construction;
    (4) Bureau of Reclamation (BOR) water and related resource projects; (5) ac-
    quisition and financial assistance planning; and (6) staff capacity. Involvement
    in these areas is based on past work, dollar value, initial reviews of bureau
    project lists and program plans, and on-going meetings with senior
    DOI officials.

         To achieve its mission and address these high-risk areas, ROO developed,
    further refined, and implemented several innovative, collaborative techniques:
    technical assistance presentations; critical point evaluations and desk reviews;
    reviews and investigations of public concern; suspension and debarment refer-
    rals; collaboration with RATB; and weekly meetings with senior officials. All
    products that result from these activities and can be publicly distributed are
    posted on our Web site and on Recovery.gov to ensure transparency to the
    American public. These techniques enable OIG to work collaboratively with
    DOI and its bureaus to ensure prudent use of Recovery funds, rather than
    initiate reviews after program waste has occurred. Our work is described in
    greater detail below.

    ░Technical Assistance
        OIG developed and has been implementing an unprecedented series of
    technical assistance programs aimed at educating DOI employees and fund
    recipients as to their Recovery Act responsibilities. The OIG currently offers
    technical assistance, training, and outreach in six areas: fraud awareness, single
    audit compliance, whistleblower protection, suspension and debarment, Davis-
    Bacon compliance, and Insular Area risks. In many cases, the OIG targets its
    technical assistance so as to focus on tribal entities and recipients in Insular
    areas who receive Recovery funds from DOI and other federal agencies. By
    September 2009, the OIG delivered training to or conducted outreach activities
    for more than 7,400 people.

6
    Fraud Awareness. In stand-alone presentations and as a component
of DOI University’s Contracting Officer’s Technical Representative
Course, presenters teach DOI employees how to recognize and report
indicators of potential fraud. OIG delivered fraud awareness training to
approximately 5,300 employees from all six agencies receiving Recovery
funds. OIG also delivered special presentations by request to members of
the Navajo Nation, tribal school boards, the Bureau of Indian Education,
and other DOI agencies.

    Whistleblower Protection. The Act prescribed new protections for
employees of nonfederal entities receiving Recovery funds and who
report the fraud, waste, or mismanagement of these dollars. The whistle-
blower protection awareness presentation provides an overview of these
protections. OIG officials delivered this training to more than 1,000 DOI
contracting officers, program managers, and budget and finance person-
nel. Jointly with the Department of Justice and other Inspectors General,
the DOI OIG gave this presentation to 440 California state employees
responsible for nearly $50 billion of Recovery money.

    Suspension and Debarment. Nearly 200 DOI employees attended
the OIG ROO seminars on suspension and debarment. The seminar
covers suspension and debarment purposes and procedures, the DOI
OIG’s role in coordinating investigations with other federal agencies,
and the ways in which the DOI suspension and debarment official imple-
ments OIG recommendations for action. Training is offered to law
enforcement officers, DOI OIG employees, and contracting and financial
assistance personnel.

     CPA Outreach on Single Audit Compliance. Two CPA firms with
significant tribal single audit caseloads participated in ROO training
sessions on Recovery Act and DOI’s single audit review process. The
sessions also included a roundtable discussion for firms and Bureau of
Indian Affairs (BIA) employees to share emerging issues affecting
tribal audits.

    Davis-Bacon and Related Acts. The OIG developed a course on
Davis-Bacon Act requirements for paying prevailing wages on federal
construction contracts, and Copeland “Anti-Kickback” Act compliance
reporting provisions. With $1 billion of recovery funds available, con-
tractors completing BOR projects are directly affected by these laws.

   Insular Affairs. ROO made presentations in July 2009 at the 20th
Annual Association of Pacific Island Public Auditors conference in
Guam. The presentations examined strategies to comply with the Re-
covery Act and implement best practices for spending and oversight of
Recovery funds. More than 300 people attended the sessions.



                                                                            7
    ░Critical Point Evaluations and Desk Reviews
        The OIG’s detection efforts are focused primarily on performance of
    Critical Point Evaluations, which are limited scope reviews of planned and
    ongoing major projects and initiatives. Reviewing projects as DOI plans and
    implements them allows ROO to recommend corrections for issues before they
    become problems. ROO also performs desk reviews of solicitations and an-
    nouncements of contracts, as well as financial assistance in the pre-award and
    award stages. In addition, RATB sends referrals to the OIG for review of
    potential problems with contract solicitations and financial assistance an-
    nouncements. The OIG communicates the results of these reviews both
    formally and informally in timeframes that allow for quick action by DOI. As
    of September 30, 2009, ROO had provided DOI with 22 advisories, memo-
    randa, or other products concerning Recovery Act funds or programs that
    could impact Recovery Act implementation. ROO also responded in a formal
    memorandum to four referrals received from RATB on specific solicitations.
    The reviews covered every bureau that received Recovery funding, as well as
    Departmental operations and policies.

        Most ROO products are posted on the OIG Web site (doioig.gov) and
    Recovery.gov. The exceptions include products with sensitive or proprietary
    information, or information that could help DOI ensure more thorough compli-
    ance, but that would not significantly impact Recovery Act implementation.

        OIG focuses on areas of greatest risk. In June 2009, the OIG issued a
    report on past DOI vulnerabilities that could impact the success of Recov-
    ery Act implementation. Key factors were planning and implementation of
    contracts and financial assistance awards. The majority of the funding will
    be awarded under contracts and financial assistance agreements. DOI spent
    approximately $6.9 billion in FY 2008 on contracts and financial assistance
    awards. It will award up to $3 billion in FY 2009 and 2010 in contracts and
    financial assistance under the Recovery Act alone, a significant increase over
    annual appropriations in these fiscal periods. The amount of money that will
    be awarded and the pace at which it will be awarded heightens the vulnerability
    of contracts and financial assistance awards to fraud, waste, misuse of funds,
    and poor performance.

         Due to the focus on and potential at-risk status of contracts and financial
    assistance awards under the Recovery Act, the majority of the 26 products
    ROO had issued as of September 2009 identify ways to mitigate these risks
    or to enhance the activities DOI currently is taking. For example, ROO’s
    first advisory recommended that DOI issue guidance prohibiting bureaus and
    offices from considering applications for financial assistance from suspended
    or debarred entities, a recommendation that DOI already has implemented.
    The advisory also recommended that DOI revise its Departmental Manual to
    exclude suspended and debarred entities from consideration for financial assis-
    tance awards. The implementation of this recommendation is underway.



8
     Changes to Departmental Manual policies concerning acquisition are
written by DOI Office of Acquisition and Property Management (PAM),
which has responsibility “for all policy aspects of Department-wide
functions related to acquisition and Federal Assistance,” as well as other
duties. We issued an advisory recommending additional clarity concern-
ing PAM’s role in Recovery Act implementation, given the office’s vital
role in acquisition policy development and implementation. We also
observed that both PAM and the Solicitor’s Office may need additional
staff to conduct reviews of acquisitions funded with Recovery Act mon-
ies. Both offices hired additional staff.

    ROO issued four advisories focused on mitigating the risk of fraud,
waste, and mismanagement, in the awarding and implementation of
financial assistance agreements. The advisories suggested that DOI
leverage existing monitoring mechanisms to oversee funds awarded
through financial assistance agreements. Single audits — mandatory
reviews of entities that received federal assistance funds — offer one
such mechanism, provided the audits include DOI’s Recovery Act pro-
grams in their scopes. Ensuring programs that receive Recovery fund-
ing are included in the Office of Management and Budget’s Compliance
Supplement also can improve single audit oversight. Finally, developing
and using a recipient risk-assessment instrument throughout the award
period can help DOI focus its monitoring efforts.

     In addition to reports and advisories on acquisition trends, planning,
and policy, ROO issued seven products on specific solicitations, awards,
and projects associated with Recovery Act funding. Leads for these re-
views came from four primary sources: RATB referrals, FedBizOps.gov
and Grants.gov postings, DOI referrals of potentially at-risk projects, and
project lists developed by DOI bureaus. ROO staff looks for projects that
fall into categories of higher risk (e.g., design-build construction, national
icons, and projects implemented through cooperative agreements). In
this way, we have prevented problems such as a Fish and Wildlife Service
(FWS) plan to obtain rented office space through a financial assistance
agreement rather than through a contract, as prescribed by regulation.
We also identified instances in which awards classified as fixed-price
contracts appear actually to be labor hour (time and materials) awards.
The Recovery Act clearly identifies a preference for fixed-price contracts.
Correctly classifying awards is vital to meet heightened transparency
requirements of the Act, as well as to properly administer the awards.

    Awards to tribal entities present an additional area of risk. ROO
issued a restricted release advisory to DOI and BIE regarding tribal
schools scheduled to receive Recovery funding that were at risk of fraud,
waste, and mismanagement. ROO also issued an advisory on the Bureau
of Indian Affairs’ road maintenance program, a program operated by the
same unit in which we identified significant problems with road
construction in the past.

                                                                                 9
          In a spirit of collaboration and early detection, the OIG also issued
     advisories and memoranda on early DOI Recovery Act implementation policy
     and plans. The advisories covered the expenditure and tracking of administra-
     tive costs, ensuring accountability by incorporating Recovery performance
     goals into senior executive service (SES) and senior manager plans, bureau
     program plans submitted to the Office of Management and Budget, guidance
     DOI issued to the bureaus on selecting projects classified as “youth” or “trea-
     sured landscapes” that could receive funding under the Recovery Act, and
     initial project lists developed by the bureaus. DOI and its bureaus have taken
     action on such OIG suggestions as revising administrative cost guidance, revis-
     ing program plans to add clarity, incorporating Recovery performance goals in
     SES plans, and revising or explaining project lists.

          In addition to these published advisories, ROO collaborated with RATB
     and the Department of Commerce OIG to administer an extensive survey to
     DOI on the capacity of the acquisition and financial assistance workforce to
     handle Recovery Act activities, as well as the impact of these activities on
     that workforce. Results were shared with the Commerce OIG and will be
     incorporated into an advisory on the acquisition workforce and Recovery Act
     implementation. ROO will continue to collaborate with RATB on similar joint
     activities in FY 2010.

     ░Investigative Assists and Hotline Complaints
         Reviews and investigations of public concerns resulted from ROO’s
     interaction with the OIG’s hotline staff, who receive and refer complaints of
     suspicious activity related to recovery funds and activities. In one such re-
     view, ROO staff obtained information on the Central Utah Water Conservancy
     District, which had been accused of building a pipeline to nowhere and com-
     mencing construction based on an outdated study. ROO found the claims
     unsubstantiated and issued a memorandum to DOI summarizing the complaint
     and its findings.

     ░Suspension and Debarment Referral Function
         ROO developed a suspension and debarment referral function. Suspending
     or debarring irresponsible entities from doing business with the government
     provides one way to help prevent waste of Recovery Act funds. The OIG made
     35 suspension and debarment referrals to DOI during this semiannual period.
     Action was taken on six referrals during this period.

     ░Departmental Meetings
          The ROO Assistant Inspector General (AIG) met weekly with DOI’s
     Recovery Act coordinator and senior procurement executive (also the director
     of the Office of Acquisition and Property Management). He also continued to




10
meet with the Assistant Secretary – Policy, Management, and Budget
on a biweekly basis. These meetings provide opportunities to share
information and observations made during reviews of Recovery Act
activities. The relationships developed through these meetings contrib-
uted to timely DOI responses on the observations made about Recovery
Act implementation.



OIG Evaluates Status of Royalty
Recommendations Made to DOI
     During the past 3 years, the Subcommittee on Royalty Management
(Subcommittee), the Government Accountability Office (GAO), and the
OIG have made numerous recommendations to DOI for royalty program
improvements. The Subcommittee issued one report. GAO issued 12
reports and testimonies. OIG issued six audit and evaluation reports
during the period October 1, 2005, through February 9, 2009, all of
which focused on royalty collections. A total of 137 recommendations
were generated from these reports. Our recent evaluation found that
of the 137 royalty related recommendations made since FY 2006, only
59 recommendations had sufficient actions taken to consider them
implemented or closed. Of the remaining 78 recommendations, we con-
firmed 52 as having actions initiated towards completion, and 26
as having no action taken but a completion date established for the
corrective action plan.



Passport Offices Fail to Manage
and Secure Employee Passports
    The OIG conducted a series of unannounced inspections at NBC, the
U.S. Geological Survey (USGS), and BOR passport offices. The purpose
was to determine whether DOI had collected passports from separat-
ing employees and disposed of them appropriately, as well as whether
secured passports, visas, and passport applications had been handled in
accordance with federal and departmental regulations.

     Diplomatic and official passport records maintained by these three
offices are subject to the Privacy Act of 1974. To protect the privacy of
U.S. citizens, the Privacy Act places limitations on agencies’ collection,
disclosure, and use of personal information maintained in systems of
records, such as passport and passport-related documents.




                                                                             11
          We noted that at least 49 former DOI employees may still possess valid
     official passports that identify them as representatives of the U.S. government.
     The seriousness of this issue is highlighted by an incident in which DOI failed
     to recover the official passport of a former DOI employee later convicted of
     a felony. We also found thousands of valid and expired passports, visas, and
     passport applications that were neither appropriately accounted for nor secured.
     In short, these DOI agencies’ passport offices had committed multiple viola-
     tions of the Privacy Act, the Departmental Manual, and other federal regula-
     tions that invite misuse of U.S. passports.



     Former DOI Employee Sentenced
          Jomoya Mobutu, a former Office of Surface Mining manager, misused
     his government credit card when he directed his staff assistant to use it to
     purchase such items as a pink laptop, digital cameras, calculators, a garment
     bag, briefcases and a gold plated ballpoint pen. Mobutu converted these items
     to personal use. They were later found at his home during the execution of a
     search warrant. On November 26, 2008, Mobutu accepted a plea agreement
     that included one count of theft and the voluntary resignation of his federal po-
     sition. On April 3, 2009, Mobutu was sentenced to 24 months probation, 100
     hours of community service, and restitution in the amount of $4,919.



     Working Capital Fund and Interior
     Franchise Fund Reorganized
         We evaluated DOI’s plan to expand the Interior Franchise Fund (IFF),
     which would move all NBC services and associated revenue from the Working
     Capital Fund (WCF) to the IFF. We sought to determine the legality of
     transferring these services, as well as whether or not policies and procedures
     were in place to ensure adequate accountability of the funds. We found that
     DOI has the authority to transfer only those lines of business that customer
     agencies and offices can choose to use (non-mandatory). Transferring manda-
     tory services, such as payroll processing for DOI employees, would violate the
     Interior Appropriations Act’s requirement that all IFF services be offered on a
     competitive basis. Further, we found that NBC has not established the operat-
     ing and capital improvement reserves in a manner appropriate under the Appro-
     priations Act. Specifically, NBC has failed to identify and document needed
     operating reserves.

         We made five recommendations. The first two recommendations address
     issues that should be resolved before the transfer of any NBC lines of business
     from the WCF to the IFF. The final three recommendations should help NBC
     manage the IFF more effectively. DOI concurred with all recommendations.


12
OIG Evaluates DOI Challenge
Cost Share Programs
    DOI uses partnerships to manage, conserve, and protect America’s
natural, cultural, and historic resources. Bureau of Land Management
(BLM), National Park Service (NPS), and FWS initiated the Challenge
Cost Share (CCS) Program to develop and engage in partnerships with
nonfederal entities to leverage bureau funding. We conducted an evalua-
tion of approved and funded CCS projects from FY 2003 through 2008 to
determine whether or not DOI’s nonfederal partners provided the match-
ing contributions required by the program.

     We found that bureaus did not require, enforce, or monitor partners’
matching contributions. In most cases, bureaus never confirmed partner
contributions. Due to this lack of detailed partner contribution documen-
tation and reporting, we could not confirm that approximately $6 million
in required and proposed matching partner contributions was received.

    We made eight recommendations in our report to correct underlying
programmatic deficiencies that have prevented DOI from maximizing the
partnership and leveraging potential of this program.



Desktop and Laptop Computer
Accountability Evaluated
    Given DOI’s diverse mission, varying and often opposing constituen-
cies, and controversial issues (e.g., environmental and Indian Trust
matters, infrastructure assets, and land and minerals management
activities), information control is essential. Concerned about DOI’s
physical controls over desktop and laptop computers housing potentially
sensitive information, the OIG conducted an evaluation to determine if
these devices and the information stored on them are satisfactorily pro-
tected from loss and misuse.

    We found that, overall, DOI could not account for the computers it
had purchased. There existed no uniform policy either for tracking or for
chain of custody for portable computer equipment. Specifically, our test-
ing and validation of computer property revealed 13 missing computers.
We also found that nearly 20 percent of the more than 2,500 computers
sampled could not be located. Compounding DOI’s lack of computer
accountability, its absence of encryption requirements leaves DOI and its
bureaus vulnerable to sensitive information and to personally identifiable
information being lost, stolen, or misused. Our report contained four
recommendations to address these computer information vulnerabilities.


                                                                             13
     Updates Needed in DOI Aviation
     Training and Maintenance Tracking
         The NBC Aviation Management Directorate has seen several decades of
     successful reductions in aircraft accidents. Recently, however, aging aircraft
     and changing technology have challenged its ability to continue providing safe
     aircraft services. At the same time, such challenges also offer opportunities to
     improve procedures in order to ensure continued success with safety issues.
     The OIG conducted an evaluation to determine how practices could be
     improved to meet this goal.

          We discovered a need to update current maintenance tracking systems and
     training requirements. The Aviation Directorate has two separate tracking
     systems, none of which adequately tracks maintenance of its diverse,
     complex, and changing fleet. Additionally, the directorate lacks standardiza-
     tion in its pilot inspector program. For example, the inspector’s annual flight-
     hour training requirements lack specific training curriculum and oversight on
     the kind of training that needs to be accomplished. Without these standards,
     pilot inspectors and fleet pilots cannot consistently apply the curriculum and
     may misinterpret requirements. In our report, we made three recommendations
     to address these concerns and help NBC prepare DOI’s fleet and pilots for the
     decades to come.



     Integrated Information System Needed
     To Manage Employee Relocations
          DOI spent more than $57 million in FY 2008 to relocate employees
     critical to various programs and activities. Permanent change-of-station (PCS)
     relocations are generally managed by the bureau that benefits from the
     employee relocation.

          We found that none of the bureaus used an integrated information
     system to manage PCS relocation financial and activity-related data. As a
     result, bureaus are unable to identify the cost of individual PCS relocations
     without extensive research using multiple systems and sources. We also noted
     that bureaus were not preparing comprehensive travel authorizations and ser-
     vice agreements to control PCS relocation payments.

         On October 1, 2008, DOI issued a new PCS policy guide that significantly
     tightens PCS relocation requirements and applies these requirements uniformly
     across DOI. If the new policy guidance is not implemented using an integrated
     management information system, however, management will continue to ad-




14
minister the program in a piecemeal fashion, rather than as a whole. We
offered three recommendations designed to further progress in managing
employee relocation activities.



DOI Information Security
Evaluation Completed
     In FY 2008, our evaluation revealed that DOI was not in compliance
with all elements of FISMA. Non-compliance continued in FY 2009.
The DOI Chief Information Officer’s (CIO) authority has not yet been
established in accordance with FISMA, and personnel performing sig-
nificant information security duties continue to be underqualified for the
roles they have been assigned. As long as the CIO does not have authori-
ty to ensure compliance with FISMA and does not oversee personnel with
significant information security duties pertinent to FISMA, DOI is not
able to demonstrate full compliance. As a result, accountability for the
program is lacking. The fundamental flaws in organizational structure
and authority, as well as assignment of significant information security
duties to underqualified personnel are detailed in our report.

    In five out of ten measured categories, DOI fared worse in FY 2009
than in FY 2008. In addition, contrary to our determination in FY 2008,
we found the quality of documentation in sampled information systems in
need of improvement in FY 2009. We also found investments in infor-
mation security underused and oversight lacking, even where technology
existed to facilitate both of these needs. Bureau and office resistance to
DOI guidance proved to be a substantial hurdle to overcome before im-
provements could be achieved. We also found that the fragmented
approach to information security across DOI had led to waste.

     Overall, the governance framework within DOI is inefficient, waste-
ful, and lacks accountability. The Information Technology Management
Council (ITMC) continues to be the IT governing body within DOI. It is
comprised of bureau and office CIOs who report to individual bureau and
office directors. ITMC generally makes decisions that impact informa-
tion security throughout DOI. However, implementation of ITMC deci-
sions is sporadic and often incomplete. Delegating governance to ITMC
is inconsistent with law and federal policy, and has led to waste as well as
to a decrease in accountability.




                                                                               15
         The lack of adequate governance constitutes a weakness in DOI’s overall
     information systems security program, which is a significant deficiency under
     FISMA. We recommend overhaul of the governance processes related to IT
     and IT security. Even though DOI has researched and discussed new IT gover-
     nance frameworks throughout 2009, no changes resulting from recommenda-
     tions offered in previous years have been applied.



     Previous Recommendations Pertaining
     To IT Security System Verified
          DOI has made only limited progress in implementing the OIG’s
     previous recommendations related to information security. Our evaluation
     found that DOI oversight was inadequate. Lack of management oversight con-
     stitutes a weakness in the overall information systems security program.
     It is considered a significant deficiency under FISMA, and must be reported
     as a material weakness under the Federal Financial Management Improvement
     Act (FFMIA).

         In FY 2007, the OIG made 125 recommendations to improve information
     security. In FY 2008, we reviewed progress in implementing those recommen-
     dations and determined little substantive progress had been made. Again, in
     FY 2009, we reviewed progress in implementing the 2007 recommendations.
     Our FY 2009 evaluation revealed that BLM and USGS had made no progress,
     while NBC made good progress. In all, nearly one-third of all recommenda-
     tions from FY 2007 remain unresolved.

         We concluded that DOI provided inadequate oversight of the implementa-
     tion process for recommendations made by the OIG. In response to our FY
     2008 evaluation, DOI established a new process for tracking open OIG recom-
     mendations. In 2009, we reviewed the effectiveness and efficiency of this new
     process. We found that DOI’s Cyber Security Division (CSD) required bureaus
     and offices to submit evidence supporting closure of open recommendations
     but failed to test the corrective actions to determine if they were sufficient and
     accurately reported.

         In 2006, DOI’s Chief Information Security Officer had planned to establish
     a Compliance and Oversight Division to provide “independent review
     and examination.” However, the plan was not approved. As a result, CSD
     does not conduct any inspections or technical tests to determine if corrective
     actions reported by bureaus and offices are accurate and functioning properly.
     CSD lacks the necessary resources and expertise to adequately perform
     required oversight.




16
IT System Configuration Evaluated
     We initiated this evaluation to assess DOI’s progress implementing
mandatory guidance for all bureaus’ and offices’ computer configuration.
As part of our evaluation, we visited 44 locations in six states, the District
of Columbia, and the Virgin Islands. In all, we tested 560 computers.
While conducting this fieldwork, we found several instances of non-com-
pliance with DOI guidance. One such finding was sufficiently critical
that we notified DOI’s Chief Information Security Officer immediately
by phone.

     While some offices have made substantial progress in implement-
ing guidance, others lag behind. Those lagging behind put the security
of their own data at significant risk, while creating additional risk for
other offices. Considering importance of all offices making progress, our
sample indicated that DOI averaged 68 percent compliance with guidance
that became mandatory in February 2008. During this same period, DOI
self-reported to GAO that only 39 percent of their computers complied
with the Federal Desktop Core Configuration.

    Many issues identified during this evaluation easily could have been
recognized by trained personnel. However, we found that DOI had not
conducted any inspections of its own although it had expended consider-
able funds to provide technology that simply was not being used. Due to
inadequate oversight, compliance is lagging and accountability is
missing. No amount of legislation, policy, or mandatory standards will
improve DOI’s security posture if oversight is not established and
measures taken to improve accountability.




                                                                                               17
                                                                                 Back to Toc
Bureau of Indian Affairs




       Sunrise at Mesa Arch, which spans 90
       feet at the edge of a mesa thousands
       of feet above the Colorado River
       gorge, a reminder of our long natural
       resources heritage and the people
       who have lived on the land.
Former Officials Sentenced for Conspiracy
and Misapplication of Restricted Funds
     On April 24, 2009, Robert Newell, the former governor of the Passa-
maquoddy Tribe Indian Township Reservation, received a sentence of 60
months in prison and an additional 31 months to be served concurrently,
36 months probation, $391,347 in restitution to BIA, and a special assess-
ment payment of $2,900. Several days later, on April 27, 2009, James
J. Parisi, the former finance director at the Indian Township, received a
sentence of 12 months in prison, 36 months probation, $391,347 in resti-
tution to BIA, and a special assessment payment of $1,100.

    Both were convicted on November 20, 2008, by a U.S. District Court
jury in Bangor, Maine. Newell was convicted of 29 counts and Parisi
of 11 counts, which included conspiring to defraud the United States,
intentionally misapplying funds of a federal health care benefit program,
making false statements, and submitting false claims to federal agencies.
All charges were related to the misuse of restricted funds awarded to
the Passamaquoddy Tribe when Newell was the Township governor and
Parisi was the finance director. This case previously was reported in the
April 2009 Semiannual Report to the Congress.



Contractor Indicted for Illegal Dumping
    Contractor Michael Giacchetto was indicted in the Middle District
of Florida on May 27, 2009, for depredation against U.S. property. This
indictment followed his illegal disposal of petroleum products and metal
drums on a Big Cypress Seminole Indian Reservation construction site.

    An equipment operator for Harry Pepper & Associates, Giacchetto
was working in the containment section of the site when he was tasked
with others to relocate metal drums of oil and other hazardous materials.
When the group encountered difficulty moving the drums, Giacchetto
allegedly began spilling the contents into a pit. A supervisor alerted to his
actions allegedly rendered assistance. Indictments of additional subjects
are pending.

     During his detention hearing, Giacchetto was considered a flight
risk and remanded to pre-trial detention. On August 7, 2009, he pled not
guilty and is awaiting trial.




                                                                                19
     Contractor Indicted for
     Embezzlement and Theft
         On April 17, 2009, Contractor Jason Heinlen pled guilty in
     Federal District Court for the District of Minnesota to embezzlement
     and theft from an Indian tribal organization. The indictment stems
     from an investigation into employees and contractors of the Mille
     Lacs Band of Ojibwe Indians suspected of bid rigging, embezzlement
     of funds, and receiving or paying kickbacks. The funds were part of
     a BIA grant to the tribe for improvements and repairs to the Nay Ah
     Shing Schools. Investigation continues and additional subjects have
     been identified.


     Tribal Employee Pleads Guilty
     To Public Assistance Fraud
         Angeline Woodin, director of the Little Traverse Bay Band of
     Odawa Indian Tribe’s Social Services Department, entered into a
     deferred prosecution agreement stemming from charges in the State of
     Michigan for failure to inform and false pretenses. Woodin neglected
     to properly record receipt of child support payments on her BIA appli-
     cation for assistance. Also, she neglected to report child support from
     the State of Michigan in addition to her federally and state-funded
     foster care payments. This resulted in welfare fraud as defined by the
     Michigan Criminal Code. Her reporting failure as well as a separate
     administrative error resulted in a total overpayment of $67,524 from
     1999 to 2007.

          Under the agreement, Woodin will make restitution in the amount
     of $17,000 to the State of Michigan and forego any further foster-care
     funding, providing a foregone repayment of $26,605. Additionally,
     the tribe agreed to repay BIA an additional $17,000 for their failure to
     properly invoice, which resulted in the administrative error. The total
     recovery through administrative, forgone and restitution was $60,605.



     Six Tribal Employees Indicted for Theft
          Ten people were indicted on February 4, 2009, in Federal District
     Court for the District of Montana for felony violations of theft from an
     Indian tribal organization. Among those charged were two employees
     of the Blackfeet Credit Department (BCD) and four employees of the




20
Blackfeet Crystal Creek Lodge Treatment Center (LTC). Three tribal
employees at the center of the fraud scheme (former BCD receptionist
Alex Charles Good Rider, former BCD administrative assistant Clarice
Ann Hall, and former LTC admissions clerk Bobie Jo Arnoux) were also
charged with felony conspiracy. This case last was reported in the April
2009 Semiannual Report to the Congress.

    We conducted our investigation at the request of the Blackfeet Tribe
of Indians, determining that Good Rider, Hall, and Arnoux recruited
co-workers, friends, and family members to participate in their scheme.
They got recruits to submit a short-term loan application to the BCD
through Good Rider, who ensured the loan application was processed and
approved, as well as followed by a “loan” check. The check was
transformed into cash at a local bank and distributed among scheme
participants. In approximately 5 months, 46 fraudulent checks totaling
$62,270 were issued.

     Ultimately, on April 21, 2009, Bonita Rose Plenty Horse pled guilty
to theft from an Indian tribal organization. This was followed on
May 4, 2009, by guilty pleas from Alex Charles Good Rider, Alvin Dale
Lazyboy, Clarice Ann Hall, Durand Tyland Bear Medicine, and Seivert
Daydrill Running Crane. Then, on May 12, 2009, Bobie Jo Arnoux also
pled guilty to conspiracy and to theft from an Indian tribal organization.

     On July 2, 2009, Lazyboy received a sentence of 3 years of proba-
tion, 40 hours of community service, and restitution of $3,000. On
August 3, 2009, Plenty Horse received a sentence of 3 years of probation,
40 hours of community service, and $4,230 in restitution, jointly and
severally with Good Rider. On August 24, 2009, Good Rider and Hoyt
were sentenced. Good Rider received a sentence of 2 years in prison, 36
months of probation, 80 hours of community service, and $60,770 in res-
titution, which he appealed to the Ninth Circuit Court of Appeals. Hoyt
received a sentence of 5 years probation, 40 hours of community service,
and $7,500 in restitution.

     On August 27, 2009, Hall and Running Crane were sentenced. Hall
received a sentence of 3 years of probation, 40 hours of community ser-
vice, and $1,500 in restitution. Running Crane received a sentence of 5
years probation, 40 hours of community service, and restitution of $5,900
jointly and severally with Good Rider. Heavy Runner failed to appear
at his sentencing hearing and an arrest warrant was issued for him by the
Court. On August 31, 2009, Arnoux received a sentence of 8 months
in prison, 36 months of probation, 80 hours of community service, and
restitution of $38,900. Bear Medicine awaits sentencing.




                                                                             21
     Tribal Officer Indicted For Theft
         On July 15, 2009, Emery Paul Nault, a Chippewa Cree Tribe fire
     management officer, was indicted by the Federal District Court for
     the District of Montana, charged with theft from a program receiving
     federal funds, as well as theft from an Indian tribal organization.
     The charges stemmed from Nault’s admitted misuse of three tribal
     government-issued credit cards during a period from 2003 to 2006.

         Our investigation disclosed that Nault misused his tribal
     government credit cards on 174 occasions to make personal
     purchases at stores, obtain cash advances at bars, and pay for
     personal accomodations at hotels. The total amount of unauthorized
     charges totaled $10,849.

         At his arraignment on September 8, 2009, Nault entered a plea
     of not guilty to both counts of the indictment. A trial date has not yet
     been scheduled.




22
Traditional pottery reflects the character of the
people and places where it was created. Often
native clay is used for its creation, and so the
land and the water are reflected in the work of
the potter’s hands.




                                                    23
                                 Back to Toc
Bureau of Indian Education




        The moist landscapes where land and
        water meet have been home to native
        people for generations. As caretakers
        for these places, they maintain some
        of the most pristine resources in the
        United States.
Contractors Charged In Bribery
And Kickback Schemes
     This investigation initially focused on the expenditure of approxi-
mately $1 million in funds allocated to Crow Creek Tribal Schools
(CCTS), Stephan, South Dakota, by the BIA Office of Facilities
Management and Construction (OFMC) to finance construction of new
dormitory and kitchen facilities to replace those destroyed by a campus
fire in April 2005. Work on the project was completed in 2005.

    The scope of our investigation subsequently expanded to review
other CCTS financial transactions and construction projects completed
between 2003 and 2006. CCTS received millions of dollars in additional
construction money from OFMC for those projects. Our investigation
established that the person responsible for administering the contracts on
behalf of the school was Scott Raue, the former CCTS superintendent
and chief executive officer.

    As we reported in our April 2008 Semiannual Report to the
Congress, indictments were initially filed in Federal District Court for
the District of South Dakota in October 2007, followed by guilty pleas
in March and April 2008. Then, in May 2008, a superseding indictment
charged three school officials and two contractors with various criminal
violations.

     The three school officials charged in that superseding indictment
included Raue, former CCTS counselor and grant writer Patsy Hawk,
and former CCTS director of the alternative school Brady Hastings.
Through that same superseding indictment, 25 counts of bribery, 9 counts
of money laundering, and 1 count of fraud were added to charges previ-
ously filed against Raue. Hawk was charged with one count of theft,
and Hastings with one count of theft and one count of money laundering.
The charges involving Hastings and Hawk are associated with a fraudu-
lent $26,535 payment that CCTS paid to Hastings, who later shared it
with Hawk and Raue.

     The charges contained in the superseding indictment also relate to
Raue’s receipt of bribes and/or kickbacks from construction contractors
he hired to complete projects at the school. The two contractors charged
in the superseding indictment included Ed Patzer of Patzer Flooring,
Pierre, South Dakota, and John Nystrom of Nystrom Electrical Con-
tracting, also from Pierre. Patzer was previously charged in one of the
initial indictments filed in this case. In the superseding indictment, he
was charged with 13 counts of bribery and Nystrom with 7 counts of
bribery. The charges resulted from tens of thousands of dollars in bribes
that Patzer and Nystrom allegedly paid Raue during 2005 and/or 2006 to
secure construction work at CCTS.


                                                                             25
         During September 2008, Patzer pleaded guilty to one count of
     bribery. Patzer cooperated in this investigation after pleading guilty.

         In October 2008, Hastings pleaded guilty to one count of bribery
     and also cooperated in this investigation. In January 2009, Hastings
     was sentenced to 2 years of probation and restitution of $7,935.

         During April 2009, Craig McClatchey, a Broomfield, Colorado,
     architect who had worked on several federally funded projects for
     CCTS between 2002 and 2006, pleaded guilty to one count of bribery.
     The charge against McClatchey concerned $80,000 to $120,000 he
     paid to Raue between 2002 and 2005.

         Also in April 7, 2009, Nystrom pleaded guilty to one count of
     misprision of felony and Raue to one count of bribery. Additionally,
     in April 2009, Kutz was sentenced to 24 months probation, 1,000
     hours community service, and restitution to CCTS of $50,000. Patzer
     was sentenced to 26 months in prison, 36 months probation, and
     $6,000 in restitution to CCTS. In May 2009, Hawk pleaded guilty to
     one misdemeanor count of theft.

         In July 2009, McClatchey was sentenced to 36 months of proba-
     tion, 100 hours of community service, and restitution to CCTS of
     $20,000. Nystrom was sentenced to 24 months of probation, a fine of
     $5,000, 100 hours of community service, and restitution to CCTS of
     $20,514. Raue was sentenced to 120 months in prison, 36 months of
     probation, and restitution to CCTS of $129,467.

         In September 2009, Hawk was sentenced to 24 months of
     probation, restitution to CCTS of $1,806, a fine of $500, and
     50 hours of community service. This investigation was conducted
     by the OIG and FBI.



     Contractor and Tribal Officials Charged
         On November 19, 2008, an indictment was filed in Federal
     District Court for the District of South Dakota, that charged Archie
     Baumann, President, First Dakota Enterprises (FDE), Ft. Pierre, South
     Dakota, and Norman Thompson, Sr., Treasurer, Crow Creek Sioux
     Tribe (CCST), Ft. Thompson, South Dakota, each with one count of
     bribery concerning programs receiving federal funds.




26
    On January 6, 2009, a superseding indictment was filed against Baumann,
Thompson, Randy Shields, Sr. (CCST vice chairman) and Thomas Thompson
(CCST secretary) with 23 counts of bribery concerning programs receiving
federal funds.

     Additionally, in that same superseding indictment, Thompson, Shields,
and Thomas Thompson were charged with one count in violation of retaliation
against a witness and informant and one count of conspiracy. The retaliation
charges stemmed from actions taken by the tribal officials to suspend
an individual from a tribal position because that individual had cooperated
in the investigation.

     On July 7, 2009, a second superseding indictment was filed that charged
Baumann with two additional counts of bribery, Shields with one additional
count of bribery, and Thompson, Sr. with one additional count of bribery.
Additionally, this indictment charged Shields with one count of making false
statements to OIG investigators when he was interviewed on November 24,
2008.

    The bribery charges resulted from more than $20,000 in check and cash
payments that Baumann paid an OIG informant and the other tribal offi-
cials. These payments related to business transactions Baumann attempted
to complete with CCST and/or other tribal entities. One of those transactions
included a $383,000 contract, executed with FDE but not paid out, awarding
FDE the construction of three houses at Crow Creek Tribal Schools.

   Trial for the above-named defendants is pending. This investigation was
conducted by the OIG and FBI. So far this school year, Crow Creek Tribal
Schools have received in excess of $7 million from the Bureau of Indian
Education for its programs and operations.




                                                                                              27
                                                                                Back to Toc
Bureau of Land Management




          Much of the western landscape
          is comprised of public land
          administered by the Bureau of
          Land Management. Water rights
          are a major issue here.
BLM Urged To Work With Claimants
     Last year, OIG expressed grave concerns regarding DOI’s failure
to mitigate hazards posed by abandoned mines on federal lands. As
stated in that July 2008 report, “Mines located primarily in the Western
States of California, Arizona, and Nevada have dangerously dilapi-
dated structures, serious environmental hazards, and gaping cavities—
some capable of swallowing an entire vehicle.”

     Mine operators were not required to mitigate the hazards they cre-
ated until the 1976 passage of the Federal Land Policy Management
Act (FLPMA). Prior to FLPMA, claimants left hundreds of thousands
of abandoned mine sites on public lands. Today, many of these sites
present serious safety hazards to the public, including open shafts and
unstable tunnels, deadly gases, explosive and toxic chemicals, and
rotting structures. Unfortunately, current claimants may not even be
aware of abandoned mine hazards on their claims. Our current report
presents the results of a second audit to determine how BLM might be
more effective in working with claimants to mitigate the most serious
preexistent physical safety hazards.

    To successfully mitigate these sites and protect claimant rights,
BLM must coordinate with current claimants even though these
individuals and groups are not legally responsible for mitigating
abandoned mine hazards on their claims. We found that BLM misses
opportunities to enhance public safety in this way. It neither coordi-
nates with claimants as it takes steps to identify and mitigate hazards
on public lands itself, nor actively seeks claimant cooperation and
assistance in mitigating hazards. Mitigation may include temporary
measures, such as fencing and signs, or more permanent, costly mea-
sures, such as concrete or metal mine shaft covers.

     Historically, BLM has rarely contacted claimants to request
cooperation and assistance in mitigating hazards. Under federal law,
claimants ultimately are not responsible for mitigating abandoned
mine hazards. However, they may be interested in mitigating hazards
for reasons that include concern for public safety, preservation of
mining features, compliance with state laws, or avoidance of potential
lawsuits due to liability associated with human injuries or deaths at
hazard sites. Whatever their motivation, claimants are not likely to do
anything about abandoned mine hazards unless BLM contacts them to
request their assistance.




                                                                           29
     Bad-faith Bidders Jeopardize
     Lease Auction Process
         OIG reviewed BLM’s oil and gas lease auction process after a pro-
     testor disrupted a BLM lease auction by bidding for parcels without the
     intention to pay for or develop these leases.

          OIG found that BLM did not consider bid-walkers a significant
     threat to the lease auction program and had few deterrents in place
     to limit the risk of occurrence. BLM’s lease auctions are designed to
     maximize bidder participation by providing easy access for prospective
     bidders. This open process results in a higher risk that individuals with
     hidden agendas may participate in the auction and cause disruption.

          OIG focused on BLM’s implemented and proposed revised measures
     to its lease auction process, and obtained information on other federal
     and state auction processes to identify practices that could improve or
     enhance those of BLM. BLM took swift action to initiate improvements
     after the incident by drafting an instruction memorandum with new
     measures designed to reduce the likelihood of individuals participating
     in auctions without the intent to complete their purchases. Although the
     new measures should reduce the risks associated with bad-faith
     bidders, we recommended additional steps to further minimize the risks
     of fraudulent bidders and improve the lease auction process.



     Fire Contractor Indicted
         A joint investigation with BLM looked into allegations of fraud by
     private fire contractor David A. Monington, Midwest Fire Suppression,
     Miles City, Montana. Monington allegedly submitted false documents to
     BLM fire contractors in connection with his fire suppression training and
     employment qualifications.

         This investigation revealed that Monington had ten forged certifi-
     cates of training, nine forged fire position task books, and one forged em-
     ployee performance rating that he used to obtain fire suppression-related
     supervisory employment. When interviewed, Monington admitted that
     15 of these documents contained forged signatures, although he denied
     responsibility. He declared that he first learned of the forged documents
     in December 2006 while employed with the Miles City Fire Department.
     However, he used these documents through 2007.




30
   On November 19, 2008, Monington was indicted in Federal District
Court for the District of South Dakota on 2 counts of mail fraud and 1
count of wire fraud. Monington and his attorney are involved in plea
negotiations with the U.S. Attorney’s Office.




                                                                                       31
                                                                         Back to Toc
National Park Service




    Great Sand Dunes National Park in
    Colorado, formed through time from
    deposits from the Rio Grande, is a bio-
    logically diverse, culturally rich park.
Federal Government Secures
$2.3 Million Civil Judgment
    As previously reported in the April 2009 Semiannual Report to
Congress, Ernest Robert McFarland, 66, of Fort Meyers, Florida,
was indicted in Federal District Court for the District of Arizona on
29 counts of conspiracy, false claims, mail fraud, and false state-
ments. Wayne George Heidle, 53, of La Habra, California, was also
indicted on 23 counts for conspiracy, false claims, mail fraud, and
false statements. McFarland was the owner and president of Pacific
General, Inc., and Heidle the vice president. The investigation that
uncovered evidence supporting the indictment was initiated in 2004,
and conducted jointly with the FBI.

     On January 28, 2008, Heidle pleaded guilty to information
charging him with one count in violation of Title 18 USC, Section
4 (misprision of felony). In his plea agreement, Heidle admitted
that he knew and concealed the fact that McFarland submitted false
progress payment certification forms to receive contract payments.
On May 5, 2008, Heidle was sentenced to 5 years of probation and
ordered to pay $69,730 in restitution to NPS.

    On April 21, 2008, McFarland pleaded guilty to six counts of
making false statements. In his plea agreement, he admitted to
knowingly submitting progress payment certification forms to the
Grand Canyon National Park, in which he falsely stated that he had
used government funds to pay company subcontractors for NPS
projects. On August 11, 2008, McFarland was fined $5,000, sen-
tenced to 5 years of probation, 4 months of home confinement, and
ordered to pay restitution to the NPS in the amount of $435,297.

     On April 17, 2009, a civil complaint against McFarland was
filed in the U.S. District Court, District of Arizona. The complaint
alleged that McFarland was liable for treble damages and civil
penalties under the provisions of the False Claims Act. On
April 21, 2009, a consent order was filed in U.S. District
Court, District of Arizona. The honorable U.S. District Judge
Susan R. Bolton ordered judgment in favor of the United States
against McFarland in the amount of $2,346,600. McFarland was
further ordered to provide and submit annual financial statement
forms to the United States until such judgment amount is satisfied.




                                                                        33
     Colorado Man Sentenced
     For Glen Canyon Looting
         In May 2009, Charles Lindsey was charged with one misdemeanor
     count of looting public lands, violating the Archaeological Resources
     Protection Act.

         The federal government became involved when Lindsey’s former
     wife contacted NPS regarding an annual family vacation to Glen Can-
     yon National Recreation Area, Utah. There, she indicated, her former
     husband’s family had looted Indian artifacts, petrified wood, dinosaur
     bones, and other park resources before returning to Colorado.

         Following this report, federal search warrants were executed on
     Lindsey’s residence and on the residence of his mother. Numerous
     archeological items were seized from both.

         In June 2009, Lindsey pled guilty in U.S. District Court for the
     District of Colorado to excavating and removing archeological re-
     sources from Glen Canyon. Lindsey knowingly and unlawfully trans-
     ported these archeological items from Utah to his Colorado home. He
     was sentenced to 6 months unsupervised probation.




34
Bryce Canyon National Park hoodoos are soft
sedimentary rock topped by a harder, less easily
water- and wind-eroded stone.




                                                   35
                             Back to Toc
Office of Insular Affairs




      Coral reefs are home to an estimated
      4,000 fish species and provide goods
      and services worth approximately
      $375 million annually. Yet they
      represent one of the most fragile
      ecosystems on the planet.
Former Employee Sentenced
    Edgar Johnson, a former Office of Insular Affairs Technical
Assistance Division director, was captured on video and audio
surveillance accepting $15,000 to arrange meetings on insurance
contracts with U.S. Virgin Islands officials.

     Johnson acknowledged accepting the money in exchange for services
related to his official government position, as well as to understand-
ing that his actions were illegal. During a search of Johnson’s person,
vehicles, office, and residence, he voluntarily provided the location of his
ledger that documented and tracked the illegal money. He also provided
the location of the remaining money and copies of electronic mail mes-
sages he had sent to a high-ranking Virgin Islands official to introduce
contractors looking for business opportunities.

     On January 30, 2009, Johnson pleaded guilty to wire fraud and
honest services fraud. Then, on July 23, 2009, he was sentenced in Fed-
eral District Court for the District of Columbia to 48 months of proba-
tion, which includes radio frequency location monitoring for the first 12
months. Johnson received a $5,000 fine.




                                                                                             37
                                                                               Back to Toc
U.S. Fish and Wildlife Service




            The Hubbard Glacier is North America’s
            largest tidewater glacier at 76 miles
            long and 7 miles wide. The wilderness
            area is home to wolves, migrating
            birds, and salmon, as well as minke
            and beluga whales.
Former Special Agent Sentenced
     In the April 2009 Semiannual Report to the Congress, the OIG re-
ported on its investigation that was initiated after a complaint by an
Assistant U.S. Attorney (AUSA) in Abingdon, VA. The AUSA reported
that former FWS Special Agent Kelly Holland might have stolen evi-
dence that pertained to a federal/state investigation. Additionally, the
AUSA informed the OIG that the agent gave false statements to his for-
mer supervisor, as well as during his Grand Jury testimony.

    On February 4, 2009, former FWS Special Agent Holland was
convicted of obstructing justice and possessing a stolen firearm. On
June 1, 2009, Holland was sentenced to 36 months of probation and
fined $5,000.



Honolulu IT Office Evaluated
    We evaluated the FWS Information Technology (IT) Office in Hono-
lulu, HI, on the recommendation of the OIG Computer Crimes Unit. As
part of their investigative activity, the unit found that federal computers
lacked antivirus software and therefore were infected with viruses. The
unit further found that backups of file servers and the email system serv-
ing the Pacific were not being accomplished. Lastly, the FWS computers
examined were not securely configured.

     We found that the FWS IT Office was not fully compliant with the
Office of Management and Budget or with DOI policy. We also found
that it did not adhere to all relevant standards and that it needed greater
management attention and oversight. Overall, we found widespread as-
signment of administrative permissions to end users, use of non-
standardized software, lack of protection for sensitive data (including
Personally Identifiable Information), and systems that were not being
backed up to prevent data loss in the event of disaster. In addition, one
out of two senior administrators who support the Honolulu Office had not
been physically present in the facility for more than 3 years. In our re-
view of computer configurations, we also found that sampled computers
only averaged 55-percent compliance with mandatory federal standards.




                                                                                            39
                                                                              Back to Toc
Appendices
                                                                                                                                     Appendix One




STATISTICAL HIGHLIGHTS
Investigative Activities
Cases Closed............................................................................................................................. 265
Cases Opened............................................................................................................................271
Hotline Complaints/Inquiries Received................................................................................... 134

Criminal Prosecution Activities
Indictments/Informations............................................................................................................13
Convictions....................................................................................................................................17
Sentencings..................................................................................................................................22
     - Jail.........................................................................................................................310 months
     - Criminal Penalities...............................................................................................$1,957,620
     - Probation .............................................................................................................762 months
     - Community Service.............................................................................................. 1750 hours
Criminal Matters Referred for Prosecution.................................................................................16
Criminal Matters Declined This Period.......................................................................................15

Civil Investigative Activities
Civil Referrals.................................................................................................................................2
Civil Declinations............................................................................................................................4
Civil Judgments/Settlement........................................................................................$2,359,100

Administrative Investigative Activities
Resignations...................................................................................................................................3
Suspensions.................................................................................................................. 4 (24 days)
Reprimands/Counseling................................................................................................................8
Reassignments/Transfers.............................................................................................................2
General Policy Actions.................................................................................................................14
Administrative Recoveries...............................................................................................$271,106
Contractor Suspensions................................................................................................................4
Contractor Debarments.................................................................................................................2
Bureau Non-Responsive*..............................................................................................................3


* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative
action.
                                                                                                                                                    41
     Appendix One




       STATISTICAL HIGHLIGHTS
       Audit and Evaluation Related Activities
        Reports Issued........................................................................................................................37

        	    Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications.....28
        	    Contract and Grant Audits..................................................................................................8
        	    Single Audit Quality Control Reviews.................................................................................1




        Audit and Evaluation Impacts
        Total Monetary Impacts..........................................................................................$3,361,960
        	    Questioned Costs (includes unsupported costs)............................................... $362,897
        	    Recommendations That Funds Be Put to Better Use.................................... $2,999,063



        Audit and Evaluation Recommendations Made................................................................. 125

        Audit and Evaluation Recommendations Resolved........................................................... 212



       Recovery Oversight Office Activities
        Products Issued.......................................................................................................................26

        	    Advisories..........................................................................................................................18
        	    Other Products....................................................................................................................8




42
   Appendix One




              43
Back to Toc
 Appendix Two




                Reports Issued During the
                Six-Month Reporting Period
                This listing includes all reports issued during the 6-month period that ended
                September 30, 2009. It provides report number, title, issue date, and monetary
                amounts identified in each report (* Funds To Be Put To Better Use, ** Questioned
                Cost, and *** Unsupported Cost).

                Audits, Evaluations, and Verifications
                Bureau of Indian Affairs
                ER-RR-BIA-0001-2008	            Program Assessment Rating Tool - Progress
                                                Evaluation of the Bureau of Indian Affairs (BIA) -
                                                Realty and Trust Program (04/23/2009).

                ER-RR-BIA-0003-2008	            Evaluation of the Use of Performance Information in
                                                the Bureau of Indian Affairs Office of Justice Services
                                                (04/24/2009).

                ER-IN-BIA-0015-2009	            Office of Inspector General’s Independent Report on
                                                the Office of National Drug Control Policy 2008
                                                Accounting Report - Indian Affairs (08/14/2009).

                X-VS-BIA-0012-2009	             Verification Review of the Three Recommendations
                                                Contained in the Audit Report Titled, “Bureau of In-
                                                dian Affairs, Use of Facilities Improvement and Repair
                                                Funds” (08/31/2009).

                Bureau of Land Management
                C-IN-BLM-0011-2008	             Bureau of Land Management - Mining Claimant
                                                Administration (05/04/2009).

                WR-IV-BLM-0008-2009	            Senator Feinstein’s Earmark for California Abandoned
                                                Mine Lands (06/10/2009).

                CR-EV-BLM-0002-2009	            Evaluation of Bureau of Land Management’s Oil and
                                                Gas Lease Auction Process (08/26/2009).




44
                                                                            Appendix Two




Multi-Office Assignments
CR-EV-MOA-0003-2009	   Evaluation of Royalty Recommendations Made to
                       the Department of the Interior Fiscal Year 2006 –
           .           February 2009 (04/15/2009).

WR-EV-MOI-0006-2008	   Evaluation of the Department of the Interior’s
                       Accountability of Desktop and Laptop Computers
                       and their Sensitive Data (04/24/2009).

ER-IS-MOA-0010-2009	   Wildland Fire Management Overview (05/05/2009).

ER-EV-MOA-0002-2008	   Passport Offices Failing to Manage and Secure
                       Employee Passports (05/19/2009).

X-VS-MOA-0010-2009	    Verification Review of Four Recommendations
                       Considered Implemented from our August 2007
                       Audit Report “Department of the Interior In-
                       ternal Control Program” (Report No. C-IN-
                       MOA-0002-2006) (08/31/2009).

X-IN-MOA-0021-2009	    Independent Accountants’ Report on Applying
                       Agreed-Upon Procedures (09/02/2009).

WR-EV-MOI-0008-2008	   Employee Relocation, U.S. Department of the
                       Interior (09/21/2009).

WR-EV-MOA-0004-2008	   Evaluation of Department of the Interior Challenge
                       Cost Share Programs (09/25/2009) *$2,488,000.

WR-IS-MOA-0019-2009	   Follow-up to OIG’s 2008 Evaluation Report,
                       “Interior Misstated Achievement of Small Busi-
                       ness Goals by Including Fortune 500 Companies,
                       (Report No. W-EV-MOI-0003-2008)” (09/29/2009).

X-VS-MOA-0013-2009	    Verification Review of Five Recommendations
                       Considered Implemented from our February 2004
                       Audit Report “Fleet Management Operations, U.S.
                       Department of the Interior” (09/29/2009).

WR-VS-MOI-0009-2009	   Verification Review of Nine Recommendations
                       from our February 2004 Audit Report “Improve-
                       ments Needed to Ensure Safety and Program
                       Performance - School Construction Program, 	
                       Bureau of Indian Affairs (09/30/2009).




                                                                                       45
 Appendix Two




                National Park Service
                B-EV-NPS-0007-2009	         Payments to the District of Columbia Water and
                                            Sewer Authority January 1, 2009 through
                                            March 31, 2009 (04/29/2009).

                VI-EV-NPS-0001-2008	        Review of Purchase Cards and Property
                                            Disposition, Virgin Islands National Park
                                            Service (06/04/2009).

                B-EV-NPS-0008-2009	         Payments to the District of Columbia Water and
                                            Sewer Authority April 1, 2009 through
                                            June 30, 2009 (07/20/2009).

                Office of Insular Affairs
                VI-EV-OIG-0001-2009	        Verification of Watch Quota and Jewelry Quota
                                            Data for Calendar Year 2008 Submitted by Firms
                                            Located in the U.S. Virgin Islands (04/07/2009).

                Office of the Secretary
                WR-EV-OSS-0005-2009	        Aviation Maintenance Tracking and Pilot Inspector
                                            Practices - Further Advances Needed (04/14/2009).

                ER-EV-PMB-0001-2009	        Reorganization of the Working Capital Fund and
                                            the Interior Franchise Fund (06/09/2009).

                U.S. Fish and Wildlife Service
                X-IN-FWS-0024-2006	         Independent Biennial Auditors’ Report on the
                                            Expenditures and Obligations Used by the Secretary
                                            of the Interior in the Administration of the Wildlife
                                            and Sport Fish Restoration Programs for Fiscal
                                            Years 2003 Through 2004 and Fiscal Years 2005
                                            Through 2006 (05/14/2009).

                U.S. Geological Survey
                X-IN-GSV-0016-2008	         Independent Auditors’ Report on the U.S.
                                            Geological Survey Financial Statements for
                                            Fiscal Years 2008 and 2007 (04/17/09).




46
                                                                           Appendix Two




ER-EV-GSV-0002-2009	     U.S. Geological Survey Store Not Protecting
                         Payment Card Information (06/01/2009).

X-IN-GSV-0008-2009	      Management Letter Concerning Issues Identified
                         During the Audit of the U.S. Geological Survey
                         for Fiscal Years 2008 and 2007 (06/03/2009).

Contract and Grant Audits
Bureau of Reclamation
K-CX-BOR-0001-2009	      Audit of Costs Claimed by the San Luis &
                         Delta-Mendota Water Authority under Bureau of
                         Reclamation Cooperative Agreement No. 3-FC-
                         20-10820 (04/09/2009).

K-CX-BOR-0002-2009	      CH2M HILL, Inc. Settlement Proposal -
                         Termination for the Convenience of the
                         Government Under Bureau of Reclamation
                         Contract No. 07CS340020 - Operation and
                         Maintenance of the Yuma Desalting Plant
                         (04/16/2009) **$92,807.

U.S. Fish and Wildlife Service
R-GR-FWS-0009-2008	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of Colorado, Division of Wildlife,
                         From July 1, 2005, Through June 30, 2007
                         (04/01/2009) *$511,063 **$2,335 ***$157,994.

R-GR-FWS-0002-2009	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of South Dakota, Department of
                         Game, Fish and Parks, From July 1, 2006,
                         Through June 30, 2008 (04/17/2009).

R-GR-FWS-0013-2008	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of Rhode Island, Department of En-
                         vironmental Management, Division of Fish and
                         Wildlife, From July 1, 2005, Through June 30,
                         2007 (07/22/2009) **$28,078.




                                                                                      47
 Appendix Two




                R-GR-FWS-0012-2008	        U.S. Fish and Wildlife Service Wildlife and Sport
                                           Fish Restoration Program Grants Awarded to
                                           the State of Arkansas, Game and Fish Commis-
                                           sion, From July 1, 2005, Through June 30, 2007
                                           (08/05/2009) **$37,010.

                R-GR-FWS-0004-2009	        U.S. Fish and Wildlife Service Wildlife and Sport
                                           Fish Restoration Program Grants Awarded to the
                                           State of Minnesota, Department of Natural Re-
                                           sources, From July 1, 2005, Through June 30, 2007
                                           (09/21/2009) **$20,389.

                K-CX-FWS-0004-2009	        Costs Associated With the WECC, Inc., Request
                                           for Equitable Adjustment under Contract
                                           No. 401817C012 with the U.S. Fish and
                                           Wildlife Service (09/30/2009) **$24,284.

                Single Audit Quality Control Reviews
                B-QC-MOA-0002-2009	        QCR of Leal & Carter Audits of Kickapoo
                                           Traditional Tribe of Texas for the Years Ended
                                           September 30, 1998 Through September 30, 2002
                                           (09/30/2009).

                Recovery Oversight Office Reviews
                Bureau of Indian Affairs
                ROO-ROA-BIA-2001-2009	     Recovery Oversight Advisory - Indian Education
                                           Schools at Risk (06/01/2009).

                ROO-ROA-BIA-2003-2009	     Recovery Oversight Advisory – Observations on
                                           BIA Road Maintenance Program (06/29/2009).

                ROO-RRB-MOA-R007-2009	 Response to Recovery, Accountability, and
                                       Transparency Board Referral, Question on
                                       Recovery Act Project (09/11/2009).

                Bureau of Land Management
                ROO-ROA-BLM-S003-2009	     Recovery Oversight Advisory – Concerns About
                                           Solicitation L09PS00662 (07/08/2009).




48
                                                                        Appendix Two




Multi-Office Assignments
ROO-ROA-MOA-9002-2009	 Recovery Oversight Advisory – Departmental
                       Risk Assessments of Recovery Act Activities
                       (04/01/2009).

ROO-ROA-MOA-1001-2009	 Recovery Oversight Advisory – Department
                       Manual on Allowing Federal Assistance Applica-
                       tions from Suspended and Debarred Applicants 	
                       (04/03/2009).

ROO-ROA-MOA-1002-2009	 Recovery Oversight Advisory - Senior Executive
                       Service and Senior Management Performance
                       Plans (04/08/2009).

ROO-ROA-MOA-9001-2009	 Recovery Oversight Advisory — Single Audits of
                       Recovery Act Programs (04/08/2009).

ROO-ROA-MOA-9003-2009	 Recovery Oversight Advisory – Risk
                       Assessments of Recovery Act Recipients
                       (04/08/2009).

ROO-ROA-MOA-9004-2009	 Recovery Oversight Advisory – Recovery Act
                       Activities and the Compliance Supplement
                       (04/08/2009).

ROO-ROA-MOA-1003-2009	 Recovery Oversight Advisory - Lack of
                       Clarity on Certain Project Elements in Depart-
                       ment Recovery Act Guidance (04/20/2009).

ROO-ROA-MOA-1004-2009	 Recovery Oversight Advisory – Observations on
                       Initial Project Lists (04/20/2009).

ROO-ROA-MOA-1009-2009	 Recovery Oversight Advisory – Observations on
                       Administrative Cost Guidance (05/29/2009).

ROO-ROA-MOA-1006-2009	 Addressing Past Areas of Vulnerability in
                       Department of the Interior Programs
                       (06/01/2009).

ROO-ROA-MOA-1005-2009	 Recovery Oversight Advisory – Staffing of the
                       Acquisition and Property Management Office and
                       the Solicitor’s Office (06/17/2009).

ROO-ROA-MOA-1010-2009	 Recovery Oversight Advisory – Bureau Program
                       Plans (09/18/2009).




                                                                                   49
 Appendix Two




                National Business Center
                ROO-RM-NBC-0001-2009	    Review of DOI National Business Center (NBC)
                                         Interagency Agreements (IA) and Award Action
                                         Policy (NBCM-AQD-6900-0046), dated May 15,
                                         2009 (06/11/2009).

                National Park Service
                ROO-RRB-NPS-R004-2009	   Response to Recovery, Accountability, and
                                         Transparency Board Referral, RATB-R-0030
                                         (07/08/2009).

                ROO-RM-NPS-6002-2009	    Review of NPS Revised Leasing Policy and
                                         Leasing Reference Manual (08/06/2009).

                ROO-RRB-NPS-R006-2009	   Response to Recovery, Accountability, and
                                         Transparency Board Referral, RATB-R-0051
                                         (08/26/2009).

                ROO-RM-NPS-6003-2009	    Review of the NPS Fort Jefferson Restoration
                                         Project (08/28/2009).

                ROO-ROA-NPS-6001-2009	   Recovery Oversight Advisory – Concerns About
                                         National Park Service Communications and Project
                                         Tracking (09/25/2009).

                Response/Hotline Complaint
                		                       Hotline Complaint Concerning the Central Utah
                                         Water Conservancy District (09/25/2009).

                U.S. Fish and Wildlife Service
                ROO-ROA-FWS-S001-2009	   Recovery Oversight Advisory – Concerns
                                         About Grants.gov Announcement FWSPIO6
                                         (06/17/2009).

                ROO-RRB-FWS-R005-2009	   Response to Recovery, Accountability, and
                                         Transparency Board Referral, RATB-R-0047
                                         (08/07/2009).




50
                                                                           Appendix Two




ROO-ROA-FWS-5002-2009	   Recovery Oversight Advisory – U.S. Fish and
                         Wildlife Service Region Four Planning and
                         Early Implementation Efforts (09/25/2009).




                                                                                      51
                                                                       Back to Toc
 Appendix Three




     Monetary Impact of Audit and Evaluation
     Activities During the Reporting Period

     Activity	 	 Questioned Costs*		 Funds To Be Put 		                           Total
     			                             To Better Use	     	
     				
     Bureau
     of
     Reclamation	                  $92,807	                     0		            $92,807


     Multi-Office
     Assignments	                     0		                    $2,488,000			   $2,488,000

     U.S. Fish
     and Wildlife
     Service	                     $270,090	                  $511,063			      $781,153
     Total	                       $362,897	                  $2,999,063		    $3,361,960




      *Unsupported costs are included in questioned costs.




52
  Appendix Three




               53
Back to Toc
 Appendix Four




     Monetary Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     		                                              Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                          35	           $15,267,842	          $5,344,221

     B.	 Which were issued during the
     	 reporting period.	                                     6	              $362,897	           $157,994

     		       Total (A+B)	                                   41	           $15,630,739	          $5,502,215

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                             16	            $2,884,179	           $237,636

     		       (i) Dollar value of
     		       recommendations that
     		       were agreed to by
     		       management. 		                                                  $960,816	           $204,286

     		       (ii) Dollar value of
     		       recommendations that
     		       were not agreed to by
     		       management. 		                                                $1,923,363	             $33,350

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                        25	           $12,746,560	          $5,264,579




     *Unsupported costs are included in questioned costs.




54
                                                                               Appendix Four




Monetary Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use

		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                     14	           $15,215,545

B.	 Which were issued during the
	 reporting period. 	                                2	           $2,999,063

		       Total (A+B)	                              16	           $18,214,608

C.	 For which a management decision
	 was made during the reporting period. 	            4	           $1,117,585

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 		                           $628,189

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 		                       $489,396

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                              12	           $17,097,023




                                                                                           55

                                                                        Back to Toc
 Appendix Five




                 Summary of Reports Over 6 Months
                 Old Pending Management Decisions
                 This listing includes a summary of audit and evaluation reports that were more than 6
                 months old on September 30, 2009, and still pending a management decision. It
                 provides report number, title, issue date, and number of unresolved recommendations.


                 Audits and Evaluations
                 Bureau of Indian Affairs
                 NM-IS-BIA-0002-2008	            Inspection of the Implementation of the Motor
                                                 Vehicle Operation Policy, Bureau of Indian Affairs
                                                 (07/31/2008); 6 Recommendations.

                 NM-EV-BIE-0001-2008	            Evaluation of Controls to Prevent Violence at Bureau
                                                 of Indian Education Operated Education Facilities
                                                 (08/01/2008); 3 Recommendations.

                 X-IN-BIA-0013-2008	             Independent Auditors’ Report on Indian Affairs
                                                 Financial Statements for Fiscal Years 2008 and 2007
                                                 (02/04/2009); 3 Recommendations.

                 WR-IV-BIA-0001-2009	            BIA Alaska Regional Indian Reservation Roads
                                                 Program Rife with Mismanagement and Lacking Pro-
                                                 gram Oversight (02/09/2009); 4 Recommendations.

                 X-IN-BIA-0005-2009	             Management Letter Concerning Issues Identified
                                                 During the Audit of the Indian Affairs Financial
                                                 Statements for Fiscal Years 2008 and 2007
                                                 (03/09/2009); 8 Recommendations.

                 Multi-Office Assignments
                 X-IN-MOA-0011-2008	             Independent Auditors’ Report on the Department of the
                                                 Interior 	Financial Statements for Fiscal Years 2008 and
                                                 2007 (11/15/2008); 1 Recommendation.

                 X-IN-MOA-0003-2009	             Management Letter Concerning Issues Identified
                                                 During the Audit of the Department of the Interior
                                                 Financial Statement for Fiscal Years 2008 and 2007
                                                 (02/19/2009); 6 Recommendations.




56
                                                                                Appendix Five




National Park Service
X-IN-NPS-0017-2006	         Independent Auditors’ Report on the National
                            Park Service Financial Statements for Fiscal
                            Years 2006 and 2005 (02/08/2007);
                            4 Recommendations.

X-IN-NPS-0014-2008	         Independent Auditors’ Report on the National
                            Park Service Financial Statements for Fiscal
                            Years 2008 and 2007 (01/06/2009);
                            3 Recommendations.

X-IN-NPS-0006-2009	         Management Letter Concerning Issues Identified
                            During the Audit of the National Park Service
                            Financial Statements for Fiscal Years 2008 and
                            2007 (02/18/2009); 17 Recommendations.

Office of Insular Affairs
HI-EV-GUA-0002-2008	        Guam’s Tax Collection Activities: Office of
                            Insular Affairs Involvement Needed to Achieve
                            Lasting Improvements (11/28/2008);
                            2 Recommendations.

Office of Special Trustee
Q-IN-OST-0002-2008	         Independent Auditors’ Report on the Individual
                            Indian Monies Trust Funds Financial Statements
                            for Fiscal Years 2008 and 2007 (11/18/2008);
                            2 Recommendations.

Q-IN-OST-0004-2008	         Independent Auditors’ Report on the Tribal and
                            Other Trust Funds Financial Statements for Fiscal
                            Years 2008 and 2007 (11/18/2008);
                            2 Recommendations.

Office of the Secretary
WR-EV-OSS-0005-2008	        Flash Report - Department of the Interior: Risk-
                            ing People and Property by Flying Airplanes in
                            Excess of Federal Aviation Administration and
                            Manufacturer Specifications (02/09/2009);
                            1 Recommendation.




                                                                                           57
 Appendix Five




                 U.S. Fish and Wildlife Service
                 X-IN-FWS-0020-2006	      Independent Auditors’ Report on the U.S. Fish and
                                          Wildlife Service’s Financial Statements for Fiscal
                                          Years 2006 and 2005 (08/14/2007);
                                          2 Recommendations.

                 X-IN-FWS-0018-2007	      Independent Auditors’ Report on the U.S. Fish and
                                          Wildlife Service Financial Statements for Fiscal
                                          Years 2007 and 2006 (01/18/2008);
                                          2 Recommendations.

                 Contracts and Grants
                 Insular Area Reports
                 P-GR-NMI-0003-2005	      Evaluation of Saipan Public Health Facility
                                          Project: Oversight of Capital Improvement
                                          Projects, Commonwealth of the Northern Mariana
                                          Islands (06/08/2007); 1 Recommendation.

                 U.S. Fish and Wildlife Service
                 R-GR-FWS-0029-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                          Grants Administered by the State of Washington,
                                          Department of Fish and Wildlife from July 1,
                                          2000, through June 30, 2002 (03/31/2004);
                                          1 Recommendation.

                 R-GR-FWS-0025-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                          Grants Administered by the State of New York,
                                          Department of Environmental Conservation,
                                          Division of Fish, Wildlife and Marine Resources,
                                          From April 1, 2000, Through March 31, 2002
                                          (05/06/2004); 1 Recommendation.

                 R-GR-FWS-0008-2004	      U.S. Fish and Wildlife Service Federal Assistance
                                          Grants Administered by the State of Idaho, De-
                                          partment of Fish and Game, From July 1, 2001,
                                          Through June 30, 2003 (09/30/2005);
                                          15 Recommendations.




58
                                                                          Appendix Five




R-GR-FWS-0004-2005	   U.S. Fish and Wildlife Service Federal
                      Assistance Grants Administered by the State
                      of Illinois, Department of Natural Resources,
                      From July 1, 2002, Through June 30, 2004
                      (03/31/2006); 12 Recommendations.




                                                                                     59
                                                                      Back to Toc
 Appendix Six




                Summary of Reports Over 6 Months
                Old Pending Corrective Action
                This is a listing of audit and evaluation reports more than 6 months old with
                management decisions for which corrective action has not been completed. It
                provides report number, title, issue date, and the number of recommendations
                without final corrective action. These audits and evaluations continue to be
                monitored by the Focus Leader for Management Control and Audit Follow-up,
                Assistant Secretary, Policy, Management, and Budget, for completion of
                corrective action.

                Bureau of Indian Affairs
                2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process
                                             to Approve Tribal Gaming Revenue Allocation Plans
                                             (06/11/2003); 3 Recommendations.

                X-IN-BIA-0006-2005	          Independent Auditors’ Report on the Bureau of Indian
                                             Affairs’ Financial Statements for Fiscal Years 2005
                                             and 2004 (12/20/2005); 1 Recommendation.

                C-IN-BIA-0017-2005	          Bureau of Indian Affairs, Radio Communications
                                             Program (01/31/2007); 2 Recommendations.

                X-IN-BIA-0008-2008	          Management Letter Concerning Issues Identified
                                             During the Audit of the Indian Affairs Financial State-
                                             ments for Fiscal Years 2007 and 2006 (02/21/2008);
                                             1 Recommendation.

                X-IN-BIA-0013-2008	          Independent Auditors’ Report on Indian Affairs
                                             Financial Statements for Fiscal Years 2008 and 2007
                                             (02/04/2009); 5 Recommendations.

                WR-IV-BIA-0001-2009	         BIA Alaska Regional Indian Reservation Roads
                                             Program Rife with Mismanagement and Lacking
                                             Program Oversight (02/09/2009);
                                             3 Recommendations.




60
                                                                           Appendix Six




X-IN-BIA-0005-2009	    Management Letter Concerning Issues Identified
                       During the Audit of the Indian Affairs Finan-
                       cial Statements for Fiscal Years 2008 and 2007
                       (03/09/2009); 12 Recommendations.

Bureau of Land Management
C-IN-BLM-0013-2005	    Public Safety Issues at the Saginaw Hill Property
                       Bureau of Land Management (03/15/2005);
                       1 Recommendation.

C-IN-BLM-0012-2007	    Flash Report - Environmental, Health and
                       Safety Issues at Bureau of Land Management
                       Ridgecrest Field Office Rand Mining District, CA
                       (09/12/2007); 2 Recommendations.

C-IN-MOA-0004-2007	    Abandoned Mine Lands in the Department of the
                       Interior (07/24/2008); 2 Recommendations.

WR-IV-BLM-0003-2008	   Immediate Action Needed to Stop the Inappropriate
                       Use of Cooperative Agreements in BLM’s Helium
                       Program (08/19/2008); 5 Recommendations.

Minerals Management Service
C-EV-MMS-0001-2008	    Minerals Management Service Royalty-In-Kind Oil
                       Sales Process (05/30/2008); 2 Recommendations.

Multi-Office Assignments
E-IN-MOA-0008-2004	    Department of the Interior Workers’ Compensation
                       Program (05/09/2005); 2 Recommendations.

C-IN-MOA-0049-2004	    Department of the Interior Concessions
                       Management (06/13/2005); 1 Recommendation.

C-IN-MOA-0007-2005	    U.S. Department of the Interior Radio
                       Communications Program (01/30/2007);
                       5 Recommendations.




                                                                                          61
 Appendix Six




                W-IN-MOA-0086-2004	     Proper Use of Cooperative Agreements Could
                                        Improve Interior’s Initiatives for Collaborative
                                        Partnerships (01/31/2007); 1 Recommendation.

                W-IN-MOA-0008-2005	     Private Uses of Public Lands, National Park
                                        Service and Bureau of Land Management
                                        (04/10/2007); 6 Recommendations.

                C-IN-MOA-0011-2006	     Health and Safety Concerns at Department of the
                                        Interior’s Facilities (03/26/2008);
                                        2 Recommendations.

                C-IN-MOA-0004-2007	     Abandoned Mine Lands in the Department of the
                                        Interior (07/24/2008); 4 Recommendations.

                C-IS-MOI-0008-2008	     DOI Fuels Consumption Data is Incorrectly
                                        Reported (11/04/2008); 2 Recommendations.

                X-IN-MOA-0011-2008	     Independent Auditors’ Report on the Department
                                        of the Interior Financial Statements for Fiscal
                                        Years 2008 and 2007 (11/15/2008);
                                        22 Recommendations.

                X-IN-MOA-0003-2009	     Management Letter Concerning Issues Identified
                                        During the Audit of the Department of the Interior
                                        Financial Statement for Fiscal Years 2008 and
                                        2007 (02/19/2009); 41 Recommendations.

                C-EV-MOA-0009-2008	     Evaluation Report on Oil and Gas Production on
                                        Federal Leases: No Simple Answer (02/27/2009);
                                        5 Recommendations.

                National Park Service
                1998-I-0406	            Follow-up of Recommendations Concerning
                                        Utility Rates Imposed by the National Park Service
                                        (04/15/1998); 5 Recommendations.

                2002-I-0045	            Recreational Fee Demonstration Program -
                                        National Park Service and Bureau of Land Man-
                                        agement (08/19/2002); 1 Recommendation.




62
                                                                        Appendix Six




P-IN-NPS-0105-2003	   National Park Service Management of
                      Selected Grants in Hawaii (07/30/2004);
                      2 Recommendations.

X-IN-NPS-0009-2005	   Independent Auditors’ Report on the National
                      Park Service Financial Statements for
                      Fiscal Years 2005 and 2004 (12/21/2005);
                      2 Recommendations.

P-IN-NPS-0074-2004	   Hawaii Volcanoes National Park: Improved
                      Operations Should Enhance Stewardship and
                      Visitor Experience (03/31/2006);
                      2 Recommendations.

X-IN-NPS-0017-2006	   Independent Auditors’ Report on the National
                      Park Service Financial Statements for Fiscal
                      Years 2006 and 2005 (02/08/2007);
                      4 Recommendations.

X-IN-NPS-0005-2007	   Management Letter Concerning Issues Identi-
                      fied During the Audit of the National Park Ser-
                      vice Financial Statements for Fiscal Years 2006
                      and 2005 (03/01/2007); 4 Recommendations.

C-IN-NPS-0007-2007	   Flash Report - National Park Service: Hazard-
                      ous Condition of Yosemite’s Wawona Tunnel
                      Endangers Lives (06/20/2007);
                      1 Recommendation.

X-IN-NPS-0019-2007	   Independent Auditors’ Report on the National
                      Park Service Financial Statements for Fiscal
                      Years 2007 and 2006 (12/21/2007);
                      1 Recommendation.

C-IN-MOA-0004-2007	   Abandoned Mine Lands in the Department of
                      the Interior (07/24/2008); 2 Recommendations.

Y-EV-NPS-0004-2008	   History Collection in Jeopardy at Harpers Ferry
                      Center (07/25/2008); 3 Recommendations.




                                                                                       63
 Appendix Six




                K-CX-NPS-0001-2008	       Audit of the Great Basin Heritage Area
                                          Partnership Financial Management System Under
                                          National Park Service Cooperation Agreement
                                          No. H8420070043 (07/29/2008);
                                          2 Recommendations.

                C-IN-MOA-0006-2007	       DOI’s Hurricane Rebuilding Efforts (09/03/2008);
                                          2 Recommendations.

                X-IN-NPS-0014-2008	       Independent Auditors’ Report on the National Park
                                          Service Financial Statements for Fiscal Years 2008
                                          and 2007 (01/06/2009); 1 Recommendation.

                X-IN-NPS-0006-2009	       Management Letter Concerning Issues Identified
                                          During the Audit of the National Park Service
                                          Financial Statements for Fiscal Years 2008 and
                                          2007 (02/18/2009); 25 Recommendations.

                Office of the Special Trustee for Indian Affairs
                Q-IN-OST-0002-2005	       Independent Auditors’ Report on the Tribal and
                                          Other Trust Funds and Individual Indian Monies
                                          Trust Funds Financial Statements for Fiscal Years
                                          2005 and 2004 Managed by the Office of the
                                          Special Trustee for American Indians (11/22/2005);
                                          2 Recommendations.

                Q-CX-MOA-0005-2006	       Chavarria, Dunne, and Lamey LLC Contract
                                          Deliverables (06/27/2008); 2 Recommendations.

                Office of the Secretary
                X-IN-OSS-0014-2007	       Independent Auditors’ Report on the Departmental
                                          Offices Financial Statements for Fiscal Years 2007
                                          and 2006 (01/28/2008); 2 Recommendations.




64
                                                                            Appendix Six




U.S. Fish and Wildlife Service
97-I-1305	               Audit Report on the Automated Law
                         Enforcement System, U.S. Fish and Wildlife
                         Service (09/30/1997); 1 Recommendation.

X-IN-FWS-0003-2006	      Management Letter Concerning Issues
                         Identified During the Audit of the U.S. Fish and
                         Wildlife Service’s Financial Statements for
                         Fiscal Years 2005 and 2004 (02/27/2006);
                         2 Recommendations.

C-IN-FWS-0009-2007	      Flash Report - Fish and Wildlife Service:
                         Jackson National Fish Hatchery In Need of Im-
                         mediate Action (05/08/2007);
                         2 Recommendations.

X-IN-FWS-0020-2006	      Independent Auditors’ Report on the U.S. Fish
                         and Wildlife Service’s Financial Statements for
                         Fiscal Years 2006 and 2005 (08/14/2007);
                         2 Recommendations.

X-IN-FWS-0018-2007	      Independent Auditors’ Report on the U.S. Fish
                         and Wildlife Service Financial Statements for
                         Fiscal Years 2007 and 2006 (01/18/2008);
                         1 Recommendation.

X-IN-FWS-0005-2008	      Management Letter Concerning Issues
                         Identified During the Audit of the U.S. Fish and
                         Wildlife Service Financial Statements for Fiscal
                         Years 2007 and 2006 (01/28/2008);
                         1 Recommendation.

C-IN-MOA-0006-2007	      DOI’s Hurricane Rebuilding Efforts
                         (09/03/2008); 2 Recommendations.




                                                                                           65
 Appendix Six




                Insular Area Reports*
                V-IN-VIS-0004-2005	                       Controls Over Video Lottery Terminal
                                                          Operations, Government of the Virgin
                                                          Islands (06/08/2007); 2 Recommendations.

                P-EV-FSM-0001-2007	                       Kosrae State, Federated States of
                                                          Micronesia: Property Accountability Pro-
                                                          cess Needs To Be Improved (10/17/2007);
                                                          5 Recommendations.

                V-IN-VIS-0011-2006	                       Collection of Outstanding Taxes and
                                                          Fees, Government of the Virgin Islands
                                                          (01/10/2008); 3 Recommendations.

                V-IN-VIS-0001-2007	                       Administrative Functions, Roy Lester
                                                          Schneider Regional Medical
                                                          Center, Government of the Virgin
                                                          Islands (07/28/2008);
                                                          4 Recommendations.

                P-EV-GUA-0002-2008	                       Tax Collection Activities, Government
                                                          of Guam, Revitalized Tax Collection and
                                                          Enforcement Effort Needed (11/26/2008);
                                                          2 Recommendations.

                V-IN-VIS-0003-2007	                       U.S. Virgin Islands Workers’
                                                          Compensation Benefits at Risk
                                                          (11/28/2008); 3 Recommendations.

                VI-IS-VIS-0002-2008	                      Final Evaluation Report Virgin Islands
                                                          Police Department Evidence Integrity at
                                                          Risk (03/31/2009); 10 Recommendations.




                *These Insular Area reports contain
                recommendations made specifically
                to Insular Area governors and other
                Insular Area officials, who do not
                report to the Secretary of the Interior
                and who are not subject to the policy,
                guidance, and administrative oversight
                established by the Assistant Secretary,
                Policy, Management and Budget.




66
   Appendix Six




                  67
Back to Toc
General Information



      Cross-References to the Inspector General Act
                                                                                                        Page
      Section 4(a)(2)           Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                           1-39

      Section 5(a)(2)           Recommendations for Corrective Action With Respect to Significant        1-39
                                Problems, Abuses, and Deficiencies

      Section 5(a)(3)           Significant Recommendations From Agency’s Previous Reports on           60-66
                                Which Corrective Action Has Not Been Completed

      Section 5(a)(4)           Matters Referred to Prosecutive Authorities and Resulting Convictions     41

      Section 5(a)(5)           Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)           Audit Reports Issued During the Reporting Period                        44-50

      Section 5(a)(7)           Summary of Significant Reports                                           1-39

      Section 5(a)(8)           Statistical Table: Questioned Costs                                       54

      Section 5(a)(9)           Statistical Table: Recommendations That Funds Be Put to Better Use         55

      Section 5(a)(10)          Summary of Audit Reports Issued Before the Commencement of the
                                Reporting Period for Which No Management Decision Has Been Made         56-59

      Section 5(a)(11)          Significant Revised Management Decisions Made
                                During the Reporting Period                                              N/A

      Section 5(a)(12)          Significant Management Decisions With Which
                                the Inspector General Is in Disagreement                                 N/A

      Section 5(a)(13)          Information Described Under Section 804(b) of the Federal Financial
                                Management Improvement Act of 1996                                       N/A




      *N/A: Not applicable to this reporting period.




68
                                  General Information




      Contact Us


         By Mail
U.S. Department of the Interior
 Office of Inspector General
       1849 C St. NW
     Mail Stop 4428, MIB
   Washington, DC 20240




       By Internet
       www.doioig.gov



         By Phone
         202.208.4618


          By Fax
         202.208.6062




                                                    69
